HHS/OIG Audit Report:"Review of Internal Control Procedures at Tenet Metrowest Healthcare System, LP (d/b/a Metrowest Medical Center) For the Administration of Epogen for Calendar Year 1999,"(A-01-01-00511)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Internal Control Procedures at Tenet Metrowest Healthcare System, LP (d/b/a Metrowest Medical Center)
for the Administration of Epogen for Calendar Year 1999," (A-01-01-00511)
May 29, 2001
Complete
Text of Report is available in PDF format (568KB MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that in 19 of the 33 claims reviewed (58%) at Tenet MetroWest Healthcare System, LP (d/b/a
MetroWest Medical Center), hereinafter referred to as Tenet, we found reconciliation inconsistencies between the number
of units of EPOGEN (EPO) prescribed in the physician order, administered by the facility to the patient and billed to Medicare.
The claims were submitted for services rendered during the period January 1, 1999 through December 31, 1999 that contained
services for EPO equal to or greater than 90,000 billed and reimbursed units. The Tenet submitted 33 claims in this category
and the total charge to Medicare was $125,126. We recommended that Tenet continue to strengthen its procedures to ensure
the claims submitted for EPO are supported and billed in accordance with Medicare rules and regulations. Tenet officials
stated that they will cooperate with the fiscal intermediary to effectuate any potential corrective action with respect
to the claims identified in the Report.